<html>
<title> - JOINT HEARING TO RECEIVE THE LEGISLATIVE PRESENTATIONS FROM AMVETS, PVA, VVA, IAVA, SVA, AXPOW, WWP</title>
<body><pre>[Senate Hearing 116-406]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-406
 
  JOINT HEARING TO RECEIVE THE LEGISLATIVE PRESENTATIONS FROM AMVETS, 
                    PVA, VVA, IAVA, SVA, AXPOW, WWP

=======================================================================

                             JOINT HEARING

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS

                               BEFORE THE

                              U.S. SENATE

                                AND THE

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2019

                               __________

      Formatted for the use of the Committee on Veterans' Affairs\
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      
      


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                             ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
43-087 PDF            WASHINGTON : 2021 
        
        
        
                 SENATE COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman
Jerry Moran, Kansas                  Jon Tester, Montana, Ranking 
John Boozman, Arkansas                   Member
Bill Cassidy, Louisiana              Patty Murray, Washington
Mike Rounds, South Dakota            Bernard Sanders, Vermont
Thom Tillis, North Carolina          Sherrod Brown, Ohio
Dan Sullivan, Alaska                 Richard Blumenthal, Connecticut
Marsha Blackburn, Tennessee          Mazie K. Hirono, Hawaii
Kevin Cramer, North Dakota           Joe Manchin III, West Virginia
                                     Kyrsten Sinema, Arizona
                       Adam Reece, Staff Director
                Tony McClain, Democratic Staff Director

        HOUSE OF REPRESENTATIVES COMMITTEE ON VETERANS' AFFAIRS

                   Mark Takano, California, Chairman

Julia Brownley, California           Dr. Phil Roe, Tennessee, Ranking 
Kathleen Rice, New York                  Member
Conor Lamb, Pennsylvania             Gus M. Bilirakis, Florida
Mike Levin, California               Amata C. Radewagen, American Samoa
Anthony Brindisi, New York           Mike Bost, Illinois
Max Rose, New York                   Dr. Neal Dunn, Florida
Chris Pappas, New Hampshire          Jack Bergman, Michigan
Elaine Luria, Virginia               Jim Banks, Indiana
Susie Lee, Nevada                    Andy Barr, Kentucky
Joe Cunningham, South Carolina       Dan Meuser, Pennsylvania
Gil Cisneros, California             Steve Watkins, Kansas
Collin Peterson, Minnesota           Chip Roy, Texas
Gregorio Kilili Camacho              Greg Steube, Florida
    Sablan,Northern Mariana Islands
Colin Allred, Texas
Lauren Underwood, Illinois

                       Ray Kelley, Staff Director
                 Jon Towers, Republican Staff Director
                 
                            C O N T E N T S

                              ----------                              

                             March 7, 2019
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     6
Blackburn, Hon. Marsha, U.S. Senator from Tennessee..............     7
Tester, Hon. John, Ranking Member, U.S. Senator from Montana.....     7

                            REPRESENTATIVES

Takano, Hon. Mark, Chairman, U.S. Representative from Montana....     1
Roe, Hon. Phil, Ranking Member, U.S. Representative from 
  Tennessee......................................................     3
Cisneros, Hon. Gil, U.S. Representative from California..........    25
Lamb, Hon. Conor, U.S. Representative from Pennsylvania..........    27
Bost, Hon. Mike, U.S. Representative from Illinois...............    28
Underwood, Hon. Lauren, U.S. Representative from Illinois........    30
Bilirakis, Hon. Gus M., U.S. Representative from Florida.........    31
Pappas, Hon. Chris, U.S. Representative from New Hampshire.......    33
Levin, Hon. Mike, U.S. Representative from California............    34

                               WITNESSES

Mr. Regis ``Rege'' William Riley, National Commander, American 
  Veterans.......................................................     9
Mr. David Zurfluh, National President, Paralyzed Veterans of 
  America........................................................    11
Mr. John Rowan, National President, Vietnam Veterans of America..    13
Mr. Jeremy Butler, Chief Executive Officer, Iraq and Afghanistan 
  Veterans of America............................................    15
Mr. Jared Lyon, National President, Student Veterans of America..    18
Mr. Charles A. Susino, National Director/Legislative Officer, 
  American Ex-Prisoners of War...................................    20
Ms. Rene Bardorf, Senior Vice President, Government and Community 
  Relations, Wounded Warrior Project.............................    23

                                APPENDIX

Mr. Regis ``Rege'' William Riley, Prepared Statement.............    40
Mr. David Zurfluh, Prepared Statement............................    47
Mr. John Rowan, Prepared Statement...............................    61
Mr. Jeremy Butler, Prepared Statement............................    83
Student Veterans of America, Prepared Statement..................    91
Mr. Charles A. Susino, Prepared Statement........................   101
Ms. Rene Bardorf, Prepared Statement.............................   105


  JOINT HEARING TO RECEIVE THE LEGISLATIVE PRESENTATIONS FROM AMVETS, 
                    PVA, VVA, IAVA, SVA, AXPOW, WWP

                              ----------                              


                        THURSDAY, MARCH 7, 2019

                      United States Senate,
                      and House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committees met, pursuant to notice, at 2:00 p.m., in 
Room SD-G50, Dirksen Senate Office Building, Hon. Johnny 
Isakson and Hon. Mark Takano, Chairmen of the Committees, 
presiding.
    Senators Present: Isakson, Boozman, Cassidy, Rounds, 
Blackburn, Tester, Blumenthal, Manchin and Sinema.
    Representatives Present: Takano, Brownley, Lamb, Levin, 
Brindisi, Cisneros, Lee, Underwood, Pappas, Allred, Roe, 
Bilirakis, Bost, Barr, and Meuser.

              OPENING STATEMENT OF CHAIRMAN TAKANO

    Chairman Takano. Good afternoon and welcome to the House 
and Senate Joint Hearing to Receive the Legislative 
Presentations of the Americans Prisoners of War, American 
Veterans, Iraq and Afghanistan Veterans of America, Paralyzed 
Veterans of America, Student Veterans of America, Vietnam 
Veterans of America, and Wounded Warrior Project.
    I am honored to be here with Senator Tester and Ranking 
Member Roe and all members of the House and Senate Committees 
on Veterans' Affairs.
    I would like to thank your witnesses for being here today 
and to thank them for the work they do on behalf of veterans in 
this country. This group represents many generations of 
veterans and interests, but they, and we, are united in the 
common goal of improving outcomes, creating opportunities, and 
ensuring that veterans receive the care and benefits they have 
earned.
    I am grateful for the opportunity to hear from this group 
of engaged organizations. I also want to thank veterans joining 
us here today and those that are watching us from home.
    I would also like to specifically recognize organization 
members from my home state of California. Would all the 
Californians please stand if you are in the room.
    All right. Thank you very much.
    [Applause.]
    Chairman Takano. Welcome, and welcome to all of you, no 
matter what of the 50 states, which state of the 50 states you 
are from or our territories.
    Last night, the week--last week the House Veterans' Affairs 
Committee had the opportunity to hear from Senator Wilkie--
Secretary Wilkie about the current state of VA and the vision 
for the future of VA.
    The Committee has called this vision VA 2030. VA 2030 means 
we are engaged in an effort to establish the best possible VA 
and to determine the tools and resources it needs to serve all 
veterans, no matter the generation or the conflict in which 
they served. This also means strengthening and improving VA for 
generations of veterans to come.
    Today I look forward to hearing from this diverse group of 
veterans' organizations about the challenges you foresee and 
the priorities you have for VA now and in the future. I know we 
share many of these priorities. I will speak to a few of the 
Committee's key priorities now but I look forward to an 
engaging discussion today and throughout the 116th Congress 
about your concerns.
    Addressing veteran suicide is a critical priority for the 
Committee. Last week, Secretary Wilkie pledged to spend every 
last dollar available to tackle this issue. This week, the 
President issued a new Executive order creating a task force to 
address veteran suicide, and I certainly welcome an aggressive 
and sustained approach, but I am concerned about half-measures. 
If we keep starting new programs and not fully implementing 
them we will never see real and lasting results. I think it is 
important to work with the veteran community and assess what is 
working now and how to expand it.
    We must use innovative ways to conduct outreach and engage 
with individuals so that no veteran believes that he or she is 
alone. We are ready and willing to help.
    Another top priority is providing health care and 
disability benefits to Blue Water Navy veterans exposed to 
Agent Orange. It is long past time for Congress to pass H.R. 
299. Last week, at the Committee's hearing, I asked Secretary 
Wilkie to tell me whether the administration will appeal the 
Court of Appeals for the Federal Circuit's decision to extend 
these benefits to Blue Water Navy veterans. I also asked him to 
inform me if Blue Water Navy veterans are eligible for 
disability benefits after Court's decision, will be able to 
receive health care at VA medical facilities.
    I am waiting for a response from the Secretary, but 
veterans should not be made to wait. Congress must act now.
    The House Veterans' Affairs Committee is committed to 
addressing the specific challenges faced by our women veterans, 
and we have formed a task force dedicated to developing and 
promoting policies that support women veterans and their health 
care needs, as well as ensuring their successful transition out 
of service. We want to ensure that veteran status is a 
supportive place for our women service members and that they 
have the full ability to access their beneficiaries and 
opportunities.
    Economic opportunity, whether that is education, career, 
owning a small business or home ownership is something this 
Committee wants to promote and strengthen. This can be done in 
small and big ways. We need to close the 90/10 loophole. We 
need to ensure that VA has efficient and functional systems in 
place to process benefits and ensure that veterans do not 
experience delays in receiving them. VA needs to improve and 
innovate its technology in many areas, but we will be paying 
particular attention to GI Bill implementation.
    And while I touched on just a few of the issue areas that 
are important to you and your membership, I am committed to 
helping advance your priorities in the coming year.
    I look forward to hearing your testimony today and thank 
you for your tireless advocacy for the veteran community.
    I will now move to recognize my minority Ranking Member of 
the House Veterans' Affairs Committee. Let me just say that as 
a Member of the House I want to take note of the passing of one 
of what we know is the last Member of Congress who served in 
the World War II era, Ralph Hall, of Texas. He has passed away. 
And I know that Ranking Member Roe will say more in his honor.
    So Ranking Member Roe, I now recognize you for your opening 
statement and your tribute to Representative Ralph Hall.

                  OPENING STATEMENT OF DR. ROE

    Dr. Roe. Thank you, Mr. Chairman, and Ralph, if anybody--
and many of you may have known Ralph, but he was a friend to 
everyone. He served in the House both as a Democrat and a 
Republican, and served as a lieutenant in the Navy in World War 
II, and John Dingle, who just passed, were the last two 
surviving members of the greatest generation to serve in this 
great body, and Ralph was the oldest person, at 91, to vote in 
the U.S. House. So my prayers and well wishes go to Ralph's 
family and to the people in Texas. We have lost a great 
American.
    I want to thank everyone, first of all, in this entire room 
for being here. I understand there are 50 student veterans 
here. I was talking to someone from Georgia just a minute ago 
and welcome to you all and everyone else who has come long 
distances to testify today.
    I want to go over, and I want to thank all of the auxiliary 
members. I do not think we thank them enough for what they do 
for us, as veterans, when we are deployed, and taking care of 
things at home. They also have a mission, and, by the way, we 
cannot do ours without them. While we are out doing fun stuff--
flying airplanes and on submarines and all that fun stuff--they 
are doing the mundane stuff like making sure your kid gets to 
school. So thank you all very, very much for the spouses who 
are here.
    Any Tennesseans in the crowd? As able, hold your hand up or 
stand. Thank you for being here. I appreciate you coming from 
the great state of Tennessee. There would not be a state of 
Texas without Tennessee. I will add that.
    [Laughter.]
    Dr. Roe. So I want to go over, very quickly, just what we 
did, because, really, we came to hear you all. In the 115th 
Congress we took an opportunity to do, I think, some great 
pieces of legislation. The first major piece of legislation we 
passed was the Accountability and Whistleblower Protection 
Bill. The VA has almost 270,000 employees. Most of those are 
great folks that do a great job. But some are not and should 
not be working with veterans in the VA, and it gives the VA the 
tools to remove those folks.
    Number two, the most common thing anybody at this dais here 
is I guarantee you when we go home were appeals. Veterans would 
come up and say, my appeal has been in for 7 or 8 or 10 years, 
or who knows how long, and it is not getting adjudicated. And 
we recognized that and passed a bill that was run through the 
RAMP program. It is now live for the last couple of weeks.
    I saw a veteran in Nashville just walked into the regional 
office there, a Marine, eight years in the Marine Reserve. 
Seven years he had had his claim out there, and in 90 days it 
was adjudicated. So I have seen this and heard it over and 
over. It is not going to be perfect but that is something I 
think that will really help.
    Thirdly, a bill that I take great pride in, fully paid for, 
is the Forever GI Bill. I used the GI Bill myself when I got 
out of the Army in 1974. I used it in 1975 and 1976. It 
sunsetted at 10 years. You could no longer use it. I got $300 a 
month for two years. I very much appreciate my country 
investing that in me. I had a young family and it helped me a 
great deal. Now, this particular benefit can be used the rest 
of your life, because technology is changing so rapidly that 
people have to retrain.
    The second thing that bothered me, if you did not serve a 
requisite amount of time and you were injured and got a Purple 
Heart, you might not be eligible for the full benefit. If you 
shed blood for this country now, you get the full GI Bill 
benefit going forward, the rest of your life.
    We also passed, I think, a transformative bill called the 
VA Mission Act. That bill can transform how our VA looks, as 
the Chairman mentioned, in 2030, or how it looks in 2040 or 
2050. We have to be thinking that far downstream. It applies 
about how we get health care, the caregiver part, and the asset 
review. And the Congress has fully funded the Choice program 
each time, I think to the tune, in the last Congress, two 
years, $6 billion was added.
    We also have the electronic health record. We have stood up 
a committee, which the Chairman is going to continue, to just 
look after the implementation of the electronic health record. 
I said this jokingly but not so much so. I have told the 
Secretary, if we do not get this right I want to go in the 
Witness Protection Program, because it will be that big of a 
problem for you getting your benefits, contracting everything 
that the VA does.
    And then I want to finish on two other things very much 
near and dear to my heart. I am Vietnam-era veteran. I served 
in Korea, Camp Casey--many of you probably have served in the 
same spot--Camp Bradley, other places in South Korea.
    We have our fellow Vietnam veterans that served in the Blue 
Water Navy off the coast of Vietnam. They need to be treated 
exactly the same as other veterans who put their boots on the 
ground, and I absolutely want to see that get done this year, 
the Blue Water Navy Bill. I agree with the Chairman 100 
percent. We passed it 382 to 0. We probably could not get that 
kind of vote if we asked if the sun came up in the east. So 
that shows you how bipartisan it was. We need to finish the 
job. And so I think we will.
    The last two things before I yield back, very near and dear 
to all of our hearts. Yesterday we had a roundtable on veteran 
suicide. We were spending $2 billion in 2003. We are spending 
$8 billion today on mental health and those issues. We have not 
moved the needle at all. It is still the same number. We need 
to do something different. It is not working as well as it 
should. So I strongly encourage us to do that.
    And then lastly, which I think the VA has done a really 
good job with but the job is not finished, which are our 
homeless veterans. Ten percent of all homeless veterans in the 
United States live in one county. That is Los Angeles County in 
California. And it is a problem that we should solve and can 
solve in a country as wealthy as we are.
    I appreciate the privilege of serving here on this 
Committee. I have been on it the whole time I have been in the 
U.S. House. I will stay on it as long as I am in the House, and 
I appreciate your service to our great country. You are what 
help make it great.
    With that I yield back.
    Chairman Takano. Thank you, Ranking Member Roe. I now will 
recognize----
    [Applause.]
    Chairman Takano. You can go ahead. Go ahead and clap.
    [Applause.]
    Chairman Takano. I especially want you to clap for what he 
said about him staying on the Committee as long as he is in the 
House, because we need that continuity here. So I am going to 
hold you to that, Ranking Member Roe.
    I want to now introduce--recognize Chairman Isakson for his 
opening statement.

             OPENING STATEMENT OF CHAIRMAN ISAKSON

    Chairman Isakson. You all clapped because he did a great 
job. I can clap because he finally finished.
    [Laughter.]
    Chairman Isakson. And there is nothing left for me to say.
    I always want to say ``Chairman'' because you were Chairman 
the last two years. I am not exalting you. I am just 
remembering him in those days. You are the Chairman now.
    Chairman Takano. Okay. I forgive you.
    Chairman Isakson. And I am the Chairman to the three of us 
up here. We will fight that out later.
    I just wanted to--I came to hear you. You did not come to 
listen to me, except for me to say a couple of things.
    We appreciate you so much. We have had a great week hearing 
from veterans, and it has made a lot of difference for us. This 
is a period of implementation, the next two years, as far as I 
am concerned, in the Senate, and I think everybody else feels 
the same way.
    We have done some transitional and transformative bills, 
the Mission Act and things like that, that are phenomenal, but 
if we do not get them done, get them implemented, and get them 
working, and have you calling us saying the VA is better, then 
we have not done our job. So I pledge to you I am going to do 
everything I can to see to it we take the dreams that have been 
put to paper in laws over the last two years and make them 
realities in the Veterans Administration. If we can do that we 
will have earned our pay.
    But you all have done a yeoman's job serving for your 
country and representing your country, and we want to do a 
yeoman's job of making sure that you get everything you paid 
for when you offered to risk your life for the United States.
    So God bless all of you. Thank you for being a veteran and 
thank you for being here today.
    [Applause.]
    Chairman Takano. Thank you, Chairman Isakson. I now----
    Chairman Isakson. I am going to pull rank. The lady wants 
me to yield to her for one second. Can I do that?
    Chairman Takano. Sure.

                    SENATOR MARSHA BLACKBURN

    Senator Blackburn. Thank you, Mr. Chairman. It is an honor 
to serve with Chairman Isakson and the way he leads the Senate 
Veterans' Committee. And one of the things that we are doing, 
we have all enjoyed, as Dr. Roe said, it has been such a 
pleasure to hear from each of you this week as you have come to 
our offices and you have talked with us.
    I just want to highlight one of the things that I am 
introducing today, and it will come through our Senate 
Veterans' Committee, the Congressional Gold Star Family 
Fellowship Program. This will be an act that will allow these 
Gold Star families to come in and participate in fellowship 
programs with us, here in Congress. And we are so honored to be 
able to do this.
    I met Jane Horton, whose husband lost his life in 
Afghanistan in 2011, and we had a great conversation. I do not 
know if she is in the room today, but we had a great 
conversation about the importance of this, and opening this 
door and opportunity for our Gold Star families.
    So we are looking forward to doing this and making these 
opportunities available, and with that I yield back.
    Chairman Takano. Thank you, Senator Blackburn.
    I now would like to recognize the Ranking Member of the 
Senate Veterans' Affairs Committee, Senator Tester, for his 
opening statement.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Yeah, thank you, Chairman Takano, and good 
afternoon to all of you.
    A couple of things. First of all, John Rowan, it is good to 
see you here. I do not know if it was two years or four years 
ago, you just were coming off of heart surgery. You have never 
looked better than you do today. So thank you for being here.
    We have also--if there any folks from Montana please stand. 
I know there is at least one. There we go.
    [Applause.]
    Senator Tester. Thanks. Is that you, Jeremiah? Yep. He is 
part of the Montana State University Chapter of Student 
Veterans of America. Good to have you here.
    Look, as I have said throughout these VSO hearings, and I 
think this is the fourth one, the fifth one with the VSOs, we 
take our directions from you. You are representing the folks on 
the ground, the veterans across this country, whether it is in 
urban areas, whether it is in rural areas. You know the 
challenges that are out there. We need to listen to you, just 
like the VA needs to listen to you, whether it is on Agent 
Orange, whether it is on burn pits, whether it is on our 
treatment for women veterans, whether it is on mental health 
care.
    And in that regard I have got a mental health bill, along 
with Senator Moran, that we are going to be bringing out. I 
want to get all your input on it. If there are things in it we 
need it make it better I want you to tell us about it. If there 
are things in it that do not make any sense, I want you to tell 
us about it, because, quite frankly, we are losing too many 
Americans and we are losing too many veterans to suicide in 
this country.
    We have also got a bill with Senator Boozman on women's 
health care. I talked to the Chairman this morning, Chairman 
Isakson, about that bill, and hopefully we will be able to get 
it across the finish line in this Congress.
    In the meantime, we do have a lot of oversight to do, and 
that is where you guys and gals come in, talking about how the 
Mission Act is working, how the appeals process is working, how 
the accountability bill is working. Look, we had a hell of a 
Congress last year, the last two years, and we got a lot of 
stuff done. Now we have got to make sure it is working and 
working to your best interest.
    With that, God bless you all and thank you all for being 
here.
    [Applause.]
    Chairman Takano. Thank you, Senator Tester.
    Before I begin and introduce our panel today I would like 
to pay a very tribute to a great American who has been seated 
at the table for many years, Mr. Charles Susino, Sr. Mr. Susino 
passed away last year at the age of 94, on July 12, 2018. We 
looked forward to hearing his presentation each year on behalf 
of the American Ex-Prisoners of War, where he would advocate 
not only for ex-prisoners of war but for every veteran. He was 
truly a man of action and a great advocate.
    Mr. Susino served as a staff sergeant in the Army Air Force 
in World War II. He spent 14 months in German prison camps 
after his B-52 bomber was shot down by enemy fire. At one point 
he was forced to march for 86 days where he and several of his 
crew successfully escaped. After returning home he went on to 
be a spokesman for veterans and their families who he believed 
did not have a voice.
    Please join me in a moment of silence as we pay a special 
tribute and thank Mr. Charles Susino, Sr., for his service to 
all mankind and a job well done.
    [Moment of silence.]
    Chairman Takano. He will definitely be missed, but his 
legacy lives on through his son, Mr. Charles Susino, Jr., who 
is here today. The world is a better place because Mr. Charles 
Susino--because of the role Mr. Charles Susino played and his 
presence here will definitely be missed.
    Now I would like to introduce our witnesses today and allow 
each of them five minutes to give their opening statement.
    First we have Mr. Regis William Riley, National Commander, 
American Veterans. Commander Riley, you are recognized for five 
minutes to present your opening statement.

                STATEMENT OF REGIS WILLIAM RILEY

    Mr. Riley. Thank you, Chairman Isakson, Chairman Takano, 
and honorable members of the House and Senate Committees on 
Veterans' Affairs. I appreciate the opportunity to present you 
with the 2019 legislative priorities and policy recommendations 
of AMVETS. I am Commander Riley and I reside in Pittsburgh, 
Pennsylvania, along with my wife, Dee, who is an ardent 
advocate for veterans and is a past AMVETS National Ladies 
Auxiliary President, and our son, Cory.
    For 75 years, AMVETS has been a leading voice in veterans' 
advocacy work. AMVETS is the most inclusive congressionally 
chartered veteran service organization. Our membership is open 
to both active-duty military and honorably discharged veterans.
    In the past year, AMVETS has doubled down in the efforts to 
work for veterans in a way that is second to none. We have 
assembled a world-class team of veteran advocates with 
significant expertise in health care, benefits administration, 
and policy work on Capitol Hill.
    The three most pressing issues AMVETS plans to address this 
Congress are mental care crisis and suicide epidemic, the 
critical needs of women veterans, and providing timely access 
to high-quality health care.
    Our nation's veterans could not be sending a clearer 
message that VA mental health care is not working for them than 
killing themselves in VA parking lots. According to the 
Washington Post, in a just a year leading up to November 2018, 
19 veterans committed suicide in VA campuses. A Marine Colonel, 
Jim Turner, killed himself in a Bay Pines VA Medical Center 
parking lot just weeks before Christmas. Dressed in his uniform 
blues and bearing his medals, he left us with this message, and 
I quote: ``I bet if you looked at the 22 suicides a day you 
will see VA screwed up in 90 percent.''
    And on a personal note, just three days ago an AMVETS 
commander of a post in Annville, PA, at the age of 35, 
committed suicide right in front of his AMVET post.
    In the last year, more than 6,000 veterans died as a result 
of suicide--Marine Corps, Navy, and SOCOM suicides are at a 10-
year high. Despite record numbers of veterans killing 
themselves on VA campuses and record expenditures by VA to 
address mental health, VA continues to insinuate that veterans 
killing themselves have not participated in VA care.
    Let me be clear. What we are doing is not working. To start 
fixing this problem you have to own the problem. The 
accountability starts here today.
    We are pleased that President Trump recently signed an 
Executive order to address this. However, the devil is still in 
the details.
    AMVETS is asking Congress to work with us and end the 
status quo. As such, we are requesting the creation of a 
bicameral roundtable or task force that meets every other 
month, and quarterly congressional hearings on the effort to 
get to the root of its cause and to right the ship.
    Addressing the many challenges facing our female veterans 
is a top priority for AMVETS. The House task force that was 
recently created to address issues specific to women veterans 
represents a step in the right direction. AMVETS are looking 
forward to working with Congresswoman Brownley and other task 
force members in finding solutions to the problems faced by our 
women heroes.
    In the coming weeks, AMVETS will be working with Members of 
Congress to introduce legislation that creates a holistic 
approach to research, hopefully a thorough understanding of the 
problems encountered by our women in uniform.
    The VA has pledged to serve our veterans' health care 
needs, but the challenges veterans must overcome to obtain this 
care depends on factors specific to their situation. As such, 
we are currently working on legislation that will help us reach 
out to veterans in our rural areas who are served by the VA but 
have not utilized VA care for an extended period of time. Even 
though these veterans are not there and out of sight they 
should not be out of mind.
    Additionally, AMVETS opposes the so-called access standards 
the VA recently released. By simply changing the word ``or'' to 
``and,'' the VA has made it so veterans would still need to 
travel unreasonable distances or wait months to see a medical 
professional. Such access would undermine the intent of 
Congress in passing the act.
    And lastly, we are now several months into developing 
AMVETS Switch for Freedom program, a first-of-its-kind 
nationwide program in which our members and posts are receiving 
counseling support and special access to products and 
incentives to switch from smoking to vaping.
    According to a November 2018 American Cancer Society 
statement, researchers found that e-cigarette use is likely to 
be significantly less harmful than smoking regular cigarettes, 
and as such, one of the clearest health gains we can have for 
our veterans is to immediately get them off of smoking 
combustible cigarettes by way of vaping, using patches, or 
whatever method works best for them. We need VA to take this 
issue more seriously.
    Chairmen Isakson and Takano and members of the Committees, 
I would like to thank you once again for the opportunity to 
present the issues concerning AMVETS, our active duty 
personnel, and veterans from all around the country.
    Thank you.
    Chairman Takano. Thank you, Mr. Riley.
    I would now like to--next we have Mr. David Zurfluh, 
National President, Paralyzed Veterans of America. Mr. Zurfluh, 
you are recognized for five minutes to present your opening 
statement.

                   STATEMENT OF DAVID ZURFLUH

    Mr. Zurfluh. Chairman Isakson, Chairman Takano, and members 
of the Committees, I appreciate the opportunity to speak with 
you this afternoon on behalf of the tens of thousands of 
veterans with spinal cord injuries and disorders who depend on 
the VA Spinal Cord Injury System of Care.
    The past two days advocates from our 33 chapters have been 
on Capitol Hill to educate Members of Congress about the issues 
of concern for paralyzed veterans. Although all priorities 
outlined in our written testimony are important to our members, 
I would like to devote my time today to the implementation of 
the VA Mission Act. The law's provisions address some of the 
most critical issues facing not only our members but all 
veterans with catastrophic disabilities who depend on VA for 
their health care.
    Accessing an appropriate system of health care, services 
and caregiver support is important to ensuring long-term health 
and well-being of veterans with spinal cord injuries and 
disorders. We strongly support the VA's Spinal Cord Injury 
System of Care because it provides us with the care we need as 
paralyzed veterans.
    At times, PVA members, including me, need access to care in 
the community. However, that care must be coordinated and 
provided with the same quality and physical access as available 
to veterans in the VA. I have personally experienced community-
provided care through the Choice program that failed to meet my 
needs as a paralyzed veteran.
    I injured my hip in a fall and was unable to walk, even 
with the aid of a cane. I contacted VA and was referred to a 
community provider under the Choice program. During that 
appointment, however, I spent a lot of time educating the 
medical professionals about my spinal cord injury versus 
discussing my immediate health need. I was not able to be 
appropriately examined during the visit because I was unable to 
transfer from my wheelchair to the exam table. This is not an 
experience that I would have received at my VA medical center.
    The spinal cord injury unit that I use for my care receives 
a yearly review from PVA's team of doctors, nurses, and 
architects. We evaluate the level of care provided, staffing 
needs of the unit, and the physical access available to 
veterans with catastrophic disabilities.
    We know that there will be challenges in the delivery of 
community care to veterans. Some of the challenges might be 
based on the quality of care or the experience of the providers 
in working with veterans who have catastrophic disabilities. 
Other challenges may be more basic and yet prevent access to 
care, such as inaccessible exam tables and diagnostic 
equipment.
    As VA implements the veterans' Community Care Program we 
need Congress to provide strong oversight to ensure that the 
care all eligible veterans receive through this program is the 
quality deserving of those who have sacrificed their bodies for 
this nation. We also need Congress to assure that the VA has 
the financial and personnel resources to not only fully 
implement the new community program but to also ensure that the 
VA system of care is strengthened.
    Some challenges faced by the VA Spinal Cord Injury System 
of Care include lengthy hiring processes and nurse staffing 
shortages. We expect VA to continue to work to address these 
concerns and for Congress to provide the needed authorities and 
funding to ensure that paralyzed veterans are able to rely on 
the VA for their care for decades to come.
    We also look to Congress to provide the resources and 
oversight necessary to ensure the expansion of access to the 
VA's comprehensive caregiver program for pre-9/11 veterans with 
service-connected injuries. The VA Mission Act's expansion of 
the caregiver program was a result of years of advocacy by PVA 
and other veteran service organizations. We thank you for 
rectifying the inequity that left many veterans who have 
depended for decades on their caregivers to help them stay 
healthy and independent, unable to access this program.
    Now we call on you to hold VA accountable for ensuring that 
expansion is not delayed. Veterans with spinal cord injuries 
from all wars and eras need access to these benefits. In many 
cases, their lives and continued independence rely on this 
expansion success.
    In the last year, Congress has given VA the ability to 
change the course of VA health care. We call on Congress to 
hold the VA accountable to implement the VA Mission Act in the 
manner intended by those who supported it and those who will 
live with its results.
    PVA does not fear community care. Instead, we seek to 
ensure that if care is provided in the community that it is 
appropriate and meets the needs of veterans seeking it, 
including those with catastrophic injuries.
    Ladies and gentlemen, PVA's members are unstoppable. We 
thrive every day in the face of adversity and limitations. We 
need each one of you to ensure that paralyzed veterans have the 
health care, support, and opportunities that are essential to 
live lives that are full of meaning and purpose.
    On behalf of Paralyzed Veterans of America, I thank you for 
your time and will answer any questions you may have.
    Chairman Takano. Thank you for your testimony, Mr. Zurfluh.
    Next we have Mr. John Rowan, the National President and CEO 
of Vietnam Veterans of America. Mr. Rowan, you are recognized 
for five minutes to present your opening statement.

                    STATEMENT OF JOHN ROWAN

    Mr. Rowan. Thank you, Chairman Isakson, Chairman Takano, 
Ranking Members Tester, Dr. Roe. It is a pleasure to see you 
all again. Two years ago they gave me a new aortic valve and I 
showed up three weeks later. This is my 14th time being here in 
front of you folks, and I really appreciate the ability to talk 
to everybody, and I appreciate all the Members of Congress and 
the Senate who showed up today. That is often not the case 
sometimes when you have too many other things going on.
    But I wanted to--first of all, we have formal testimony 
that I would to hopefully have placed on the record, beyond 
when I get a chance to speak today. I would also like to do a 
shout-out to my colleagues, the Korean Vietnam veterans who 
join me today, who are sitting in the back there. People do not 
know but during the Vietnam War over 350,000 Korean military 
served in Vietnam alongside the Americans, and we just want to 
acknowledge them today.
    [Applause.]
    Mr. Rowan. And despite all the years that have passed since 
the Vietnam War ended, the issue of the POW/MIAs is still our 
highest priority, and it came home the other day when the DPAA 
finally acknowledged that they had recovered three Air America 
crew from Laos, a very difficult place to deal with. One of 
them happened to originally come from one of my neighborhoods 
in Queens, New York. So after all these years later we are 
still resolving cases, and we are proud of the work we have 
done to help accomplish that.
    The biggest issue, however, facing Vietnam veterans, and, 
frankly, all the veterans now, and even civilians, is the whole 
toxic exposure issue. It started with us in Vietnam with the 
Agent Orange illnesses but it has gone on many years 
afterwards. Frankly, those of us who walked off the battlefield 
in one piece thought, ah, we are safe. Wrong. I am the classic 
example. I am 100 percent disabled, primarily from diabetes and 
neuropathy and my heart replacement, all related to diabetes 
and neuropathy and all the rest of it, but all related to Agent 
Orange.
    Unfortunately, the folks in the Persian Gulf were exposed 
to all sorts of stuff that we still have not figured out, and 
the folks that went to Iraq and Afghanistan, unfortunately, and 
there is no EPA in either one of those countries, so the burn 
pits that they used over there have really set us back 
tremendously for those veterans. They are only now starting to 
understand, because they are now reaching ages--many of us in 
the Vietnam era did not get affected or did not see the effects 
of Agent Orange until we were 40 or 50 or 60, or even today at 
70.
    So we are very concerned about the continuation of these 
toxic exposures and also how they have rolled over into the 
private sector. The base issue is extremely important. Camp 
Lejeune is just the tip of the iceberg. The Air Force bases, 
there are 147 Air Force bases that have a Superfund site. Think 
about that. How did that happen? Because of all of the toxic 
stuff that the Air Force used, never mind jet fuel which is 
obvious, but all the wonderful things to clean planes, de-ice 
them, and all the rest of it. Where does it go? It goes in the 
ground, and unfortunately it may even affect the towns that 
they are sited in.
    So we are concerned about that. We are concerned about 
toxic substances in our food and elsewhere, that the private 
sector is now dealing with. I still do not understand where all 
these autistic kids came from, but I have my questions.
    Fixing the VA. We will continue to work with everybody in 
this room to try to make the VA a better place. We are, 
however, concerned about this somehow more reliance on the 
private sector. The truth of the matter is I am not so sure the 
private sector is ready for us. The gentleman to my right here, 
David's talk about what happens with spinal cord injury 
veterans is not alone.
    Also, there are no doctors. There are no primary care 
doctors in this country, period. I have private health care, 
besides using the VA, which I prefer, quite frankly. I retired 
in the city of New York. I have a really nice health care plan. 
I have a Medicare Advantage plan. It does me really well. The 
problem is I have not seen a doctor in two years. All I get is 
nurse practitioners. They are very nice people, and they are 
very smart people, but they are not doctors.
    And I think that we are really--and I live in the city of 
New York, which has more health care per square inch than 
anywhere in the United States. So we are very concerned about 
the effect of this Choice program on our veterans as we go 
forward, and really afraid of the ability to pay for it. Where 
is the money going to come from, when the private sector's 
doctors charge three times what a VA doctor costs-- if you can 
find one in the private sector who is willing to treat you.
    So I thank you for allowing us to come before you again 
this year. I am really proud to see the new Chair. Chairman 
Takano is now my fifth Chair in the House Veterans' Affairs 
Committee that I have had the pleasure of working with, and it 
is always a pleasure to see Senator Isakson.
    Thank you.
    [Applause.]
    Chairman Takano. Thank you, John Rowan, for your testimony. 
I now recognize Jeremy Butler, Chief Executive Officer, Iraq 
and Afghanistan Veterans of America. Mr. Butler, you are 
recognized for five minutes to make your opening statement.

                   STATEMENT OF JEREMY BUTLER

    Mr. Butler. Thank you. Chairman Isakson, Chairman Takano, 
Ranking Member Tester, Ranking Member Roe, and distinguished 
members of the Committees, on behalf of IAVA's more than 
425,000 members I would like to thank you for the opportunity 
to introduce myself and testify before you today.
    But first I would like to recognize the many IAVA members 
from around the country who have flown in to storm the Hill 
with us this week and who are here with us today.
    [Applause.]
    Mr. Butler. Those who remain standing represent the two 
million women who have served and who continue to serve and who 
deserve the equal recognition and support of the government and 
the public. Thank you all for being with us today.
    [Applause.]
    Mr. Butler. After three years on staff at IAVA, last month 
I took over as CEO of the organization, following the 
transition of our founder, Paul Rieckhoff, to our Board of 
Directors. IAVA was founded 15 years ago and was built on his 
vision and leadership. I am humbled to take the helm of this 
incredible organization.
    I joined the Navy in 1999, and served on active duty for 
six years, to include deploying in 2003, on the United States 
Gary in support of the invasion of Iraq. I transitioned out of 
active duty in 2006, and into the Reserves where I continue to 
serve today.
    My path to the military was shaped by my parents. They met 
as Peace Corps volunteers in 1962, inspired by President 
Kennedy's call for young Americans to serve their country and 
the cause of freedom. Before joining the Peace Corps, however, 
my father also served in the Army, and despite the difficulties 
of being a black man in the 1950s Army, I know that he 
cherished his military service as much as he cherished his time 
in the Peace Corps. For both my parents, their service taught 
them that serving in support of others was far more noble than 
serving yourself.
    My father did not live to see me join the Navy but I think 
he would have been proud of me being in the military but also 
especially proud to see me begin working with IAVA. ``You do 
not wait to do what is right,'' he would tell me. ``You do it 
as soon as you know that it is right.''
    IAVA members have spent 15 years fighting for what is right 
for veterans. This year, IAVA will continue its focus on the 
six priorities that our members see as most pressing. The Big 
Six, as we call them, contain the challenges and opportunities 
that IAVA members care about most, and that we see as areas 
where we can uniquely make an impact.
    The first is to continue our campaign to combat suicide 
among troops and veterans. In our 2019 member survey, 65 
percent of IAVA members reported that they knew a post-9/11 
veteran who attempted suicide. Fifty-nine percent knew a post-
9/11 veteran that died by suicide, and over 75 percent of our 
members reported believing that the nation is not doing enough 
to combat military and veteran suicide.
    This crisis is real and IAVA is on the front lines. Last 
year, our Rapid Response Referral Program connected 39 veterans 
to the Veterans Crisis Line, which means that about every week 
and a half our small staff of social workers supported a 
veteran that was either currently suicidal or at risk of 
suicide, with life-saving connections to help. That trend, 
unfortunately, continues this year.
    The second of our priorities is to modernize government to 
support the post-9/11 generation. IAVA will continue to monitor 
the implementation of the Mission Act. We have always stated 
that implementation will require strong congressional oversight 
in order to ensure that it does not turn into an expansion of 
privatization at the VA. Eighty one percent of our members 
rated VA care at average or above average in our last survey. 
Veterans tell us that they like the care that they receive at 
the VA. Our job is to ensure that they have easy access to the 
foundational services that the VA can uniquely provide for our 
community.
    The third priority is to drive support for injuries from 
burn pits and toxic exposures. Eighty-two percent of our 
members were exposed to burn pits during their deployments, and 
over 84 percent of those exposed believe they already have, or 
may have health symptoms because of that exposure.
    Burn pits are quickly becoming the Agent Orange of the 
post-9/11 era of veterans. It is well past time that 
comprehensive action is taken to address the very real concerns 
that those exposures have severely impacted the long-term 
health of our veterans. IAVA calls on Congress to pass the Burn 
Pits Accountability Act which requires the Department of 
Defense to record and report exposures.
    Our fourth priority is to continue to defend and expand 
veterans' education opportunities. Since its inception, the 
post-9/11 GI Bill has faced threats of funding cuts and abuse, 
which is why IAVA continues to make the defense of this benefit 
a top priority. In 2017, IAVA worked with VSO partners to pass 
the Colmery Veterans Educational Assistance Act, but in light 
of the technical issues it has impacted housing payments for 
tens of thousands of service-connected students. IAVA continues 
to be a watchdog and asks for your vigilant oversight to ensure 
that the VA fixes its IT problems without delay.
    Our fifth priority is to galvanize support for women 
veterans. They are the fastest-growing population in both the 
military and veteran communities and IAVA will continue our 
public awareness campaign, #SheWhoBorneTheBattle, to bring a 
greater cultural understanding of the increasing contributions 
of women servicemembers. We will push for passage of the 
Deborah Sampson Act and will continue to press the Secretary of 
the VA through legislative and administrative action to change 
the outdated motto of the VA to be inclusive of all who have 
worn the uniform.
    Finally, we will establish support for veterans who want to 
utilize medical cannabis. Over 80 percent of IAVA members 
support legalization for medical use, yet our national policies 
are outdated, research is lacking, and stigma persists. IAVA 
will continue our fight on behalf of veterans who can benefit 
from medicinal cannabis and we remain committed to the passage 
of the bipartisan VA Medicinal Cannabis Research Act.
    We applaud Senators Tester and Sullivan and Representatives 
Correa and Higgins for their reintroduction of this legislation 
and look forward to working with them on its passage.
    IAVA's ``Big Six,'' the policy priorities that I presented 
today, represent those that our members feel are the most 
pressing for our community.
    Members of both Committees, thank you again for the 
opportunity to testify before you today and share IAVA's views 
on these issues. I look forward to answering your questions 
that you may have.
    [Applause.]
    Chairman Takano. Thank you, Mr. Butler.
    Mr. Jared Lyon, National President and CEO, Student 
Veterans of America. Mr. Lyon, you are recognized for five 
minutes to present your opening statement.

                    STATEMENT OF JARED LYON

    Mr. Lyon. Thank you, Chairmen Isakson and Takano, Ranking 
Members Tester and Roe, and members of the Committee. Thank you 
for inviting Student Veterans of America to present our policy 
priorities for 2019.
    I am here as the National President and CEO of the largest 
chapter-based student organization in the country. With over 
1,500 chapters and 754,000 student veterans across the nation, 
we place student veterans at the top of our organizational 
pyramid.
    Today I am honored to be joined by student veterans, 
alumni, chapter advisors, and supporters. If you are here with 
Student Veterans of America today please stand or raise your 
hand.
    [Applause.]
    Mr. Lyon. The motto or our organization is ``Yesterday's 
Warriors, Today's Scholars, and Tomorrow's Leaders.'' These 
folks here with me today are a snapshot of who we are, and they 
are the epitome of our ethos.
    We are also joined by nine VFW and SVA legislative fellows. 
I, myself, have just returned from meeting servicemembers in 
Japan, and I can confirm that our force is ready and will make 
fine student veterans in the future.
    Representing the current generation of student veterans is 
our former chapter president, at the University of Nevada Las 
Vegas Rebel Vets, a United States Air Force veteran and spouse, 
who recently moved to the Boston area for her husband's career. 
She is a current transfer hopeful at Boston College as a 
biology major on the premedicine track, and she is the 2019 
National Student Veteran of the Year, Alexandria Sawin. Alex, 
please stand so we can recognize your service.
    [Applause.]
    Mr. Lyon. I would finally like to highlight a student 
veterans who has graduated but could not join us today, 
Sergeant Kyle White, U.S. Army retired. Many of you know Kyle 
as a Medal of Honor recipient for his actions in Afghanistan in 
2007. Kyle had not yet received the Medal of Honor when he 
became a student veteran at the University of North Caroline 
Charlotte to pursue a bachelor's in business administration 
with a focus in finance. Kyle is a strong advocate for student 
veterans and an SVA alumnus.
    These amazing stories are not unique. In 2017, SVA released 
the National Veteran Education Success Tracker, NVEST for 
short, in partnership with the VA, studying the first 854,000 
veterans to use the post-9/11 GI Bill. The NVEST research 
illustrates the high performance of student veterans on campus. 
Today's student veterans have a higher grade point average, a 
higher success rate, and a propensity to obtain degrees in 
high-demand fields, and the data make one fact abundantly 
clear--student veterans are worth America's continued 
investment.
    With that proven success, we are committed to being an 
organization that advocates under a concept we call being left 
of bang. United States Marine Corps has programs dedicated to 
this concept. The concept is about being aware and taking 
actions ahead of when potential violence may occur, the bang of 
a gun or explosion. To be the right of bang is to be reactive, 
but being left of bang provides the opportunity to be 
proactive.
    Student Veterans of America is an organization dedicated 
being left of bang, dedicated to proactive solutions that 
empower, employ, and equip veterans with the tools needed to 
succeed on campus, thrive in their careers, and live their best 
lives in the civilian world.
    Our policy priorities for this year are truly left of bang, 
with a focus on being proactive, collaborative, and innovative. 
Our number one legislative priority will be to provide voice to 
our nation's student veterans as a significant component of the 
reauthorization of the Higher Education Act, first, 
incorporating VA and DoD education resources as federal funds 
and applying the rule to all institutions of higher learning. 
The 90/10 loophole has been abused long enough, and this 
important change is a major check on the quality of 
institutions.
    Second, simplifying the processes such as FAFSA and student 
loan repayment options, with the caveat that simplification 
must not come at the expense of access to resources for 
students.
    Third, maintaining key student protections such as 
borrowers' defense to repayment and gainful employment.
    Fourth, establishing greater oversight on nonprofit 
conversions.
    And finally, creating efficiencies through greater 
government collaboration and automatic application of benefits 
aimed at reducing student debt.
    VA's education benefits only impact a fraction of the 
legislation and regulation that touch the educational 
opportunities, choices, and protections that impact today's 
student veterans. In 2017, the 115th Congress unanimously 
passed the Forever GI Bill, establishing education as a right 
of service, no longer as an otherwise short-sighted cost of 
war.
    Our second priority for the year is continued oversight of 
implementation of this new law. Last semester, we were 
significant GI Bill late payments, due to the VA's inability to 
effectively implement severe provisions of Forever GI Bill, 
causing extreme hardship for thousands of student veterans. We 
appreciate the leadership of Congress in swiftly addressing the 
frustrations felt across the country and applaud VA's eventual 
decision to reset housing allowance calculations in response to 
the blunder.
    A crisis of this proportion was preventable and must not 
happen again. The application of the law should not 
inadvertently impact student veterans. The GI Bill is an earned 
benefit. Veterans have every right to expect prompt and 
accurate payments.
    The balance of our priorities in nuanced detail are in our 
written testimony. SVA is a solutions-oriented organization and 
we remain committed to be a partner with you and your staffs 
and look forward to working together to empower student 
veterans to, through, and beyond higher education to create 
America's next generation of leaders.
    Thank you all for the time.
    [Applause.]
    Chairman Takano. Thank you, Mr. Lyon, for your testimony.
    Mr. Charles Anthony Susino, Jr., National Director, 
Legislative Office, American Ex-Prisoners of War. Mr. Susino, 
you are recognized for five minutes to present your opening 
statement.

              STATEMENT OF CHARLES ANTHONY SUSINO

    Mr. Susino. Thank you, sir. Chairmen and Members of the 
House and Senate Veterans' Affairs Committee and guests, my 
name is Charles A. Susino, National Director of the American 
Ex-Prisoners of War. I thank you for the opportunity to express 
our views. You knew my father, Charles Susino, Jr., National 
Commander of our organization for many years. It was his voice 
that urged you to do the right thing on behalf of all veterans.
    I will attempt to channel that voice today. This past July 
my family and I, and the veteran community as a whole, lost the 
strongest advocate on behalf of those who spoke directly to 
you. He professed it is about deserving veterans receiving what 
they earned.
    Mr. Chairman, thank you for the kind words earlier about my 
dad. Thank you all for the moment of silence. If my dad could 
whisper in my ear right now he would say, ``Charlie, it is not 
about me. There is a lot of work to get done. Let us get 
cracking.''
    At 94, that is the word he said. In preparation, when he 
was still alive, he says, ``You know, sometimes I think we are 
too nice. We have got to make sure everybody is focused on 
getting things done.'' That was his words, just shy of 95. So I 
am going to leave you with that and we are going to continue.
    We are grateful for your efforts over the past year and 
look forward to the productive 116th Congress. If you disagree 
with us, either today in testimony or as we work with our 
fellow veterans, please express your objection and we will 
respect your position. Otherwise, we ask for your unwavering 
advocacy on our behalf.
    We draw your attention to several bills which we believe 
have special merit and request your proactive support. The Blue 
Water Navy Vietnam Veterans Act, H.R. 299, we heard a lot 
about. I will not be repetitious except to say stop the debate 
and establish the presumptive for these veterans. As it has 
been said several times before, we do not need any further 
proof.
    The previous bill, S1990, DIC Improvement Act, must be 
reintroduced. Its purpose was to amend Title 38, to increase 
the amounts payable by the VA for DIC compensation and to 
modify the requirements for DIC for survivors of veterans rated 
totally disabled at the time of death. For many, DIC is the 
only source of income and critical to their quality of life.
    We must reintroduce the National POW/MIA Flag Act to amend 
Title 36, to require the POW/MIA flag to be raised on days that 
the flag of the United States is displayed on certain federal 
property. There can be no objection to the special honor and 
public awareness for those that did not come home.
    Full Military Honors Bill has been reintroduced in this 
session and needs to quickly be passed. The bill would provide 
full military honors for the funeral of an eligible veteran who 
(1) is first interred or inurned in Arlington National Cemetery 
on or after the enactment of the bill; (2) was awarded the 
Medal of Honor or the Prisoner-of-War medal; or (3) is not 
currently entitled to full military honors because of such 
veteran's grade.
    Bill number four, Gold Star Families Remembrance Day, again 
mentioned earlier. Appreciate that very much. March 2, 2019 
marked the 90th year to honor and recognize the sacrifices made 
by the veteran and their families who gave their lives to 
defend freedom.
    Earlier, many of you, in your opening remarks, talked about 
focusing on implementation. Thank you for doing that. I really 
want to accent that area. It is very demanding work to develop 
and get VA bills through Congress. The veteran's health benefit 
experience can only improve if the implementation is within a 
high-performing modern organization with a strong culture of 
accountability to all levels of employees. It is worth pausing 
and thinking about that and see if those words would describe 
our VA.
    We believe continued shortcomings hamper and prevent the 
veteran from receiving what they deserve. For example, a 
computer system which allows you to schedule a physician 
appointment but is challenged to cancel or reschedule imposes 
unreasonable restrictions on the VA treating physician--Dr. 
Roe, I ask you to comment on this later--with respect to many 
medications which cannot be prescribed, or precludes physicians 
from prescribing multiple medications, which is a standard 
protocol for that treatment in the private sector.
    The public does not wait weeks to see their primary 
physician for routine illnesses. The veteran often still has 
to.
    We must approach the implementation with the same energy 
and focus as bill passage. It is maybe not quite as, excuse the 
term, glamorous. Do your own calendar tests. Please do your own 
calendar tests. Look back several months, then look forward 
several months, and look at the time spent on oversight of the 
VA operations. Your leadership is needed and very much 
appreciated. And when you do that, again, it is not on 
activity. It is on results.
    Last item, in 1986, Congress and the President mandated VA 
health care for veterans with service-connected disabilities as 
well as special groups of veterans. The special groups included 
veterans of World War I, 58 years after the end of the war. 
World War II ended 73 years ago. We have asked, for almost a 
decade, to revisit the special groups with an update to include 
veterans of World War II, Korea, Vietnam, Cold War, and our 
conflicts in the Middle East. We have requested for many years 
with no movement.
    The political landscape is always changing. Maybe this 
President may see it appropriate and fair treatment for those 
that have kept our country free.
    Thank you very much.
    [Applause.]
    Chairman Takano. Thank you, Mr. Susino, and, of course, we 
are sorry for your loss, and again we thank your father for his 
many years of service.
    I now turn to Ms. Rene Bardorf, Senior Vice President for 
Government and Community Relations, Wounded Warrior Project. 
Ms. Bardorf, you are recognized for five minutes to present 
your opening statement.

                   STATEMENT OF RENE BARDORF

    Ms. Bardorf. Thank you, Chairmen Isakson and Takano, 
Ranking Members Tester and Roe, and members of the Committee. 
Thank you for inviting Wounded Warrior Project to testify at 
today's hearing. I am honored to represent an organization that 
serves over 150,000 wounded, ill, and injured servicemembers, 
veterans, and their families with lifesaving programs and 
services.
    We delivered nearly $200 million in free programs in 2018 
alone, and since 2003 more than $1.3 billion in programs. More 
than 7 million citizens from across your states and districts 
have supported us as we deliver these important programs at no 
cost to veterans, and we are grateful for your support.
    As one of the nation's largest nonprofits we have developed 
unprecedented reach to increase the public's awareness of the 
challenges our veterans face. We augment programs that assist 
DoD and VA with outreach and care for veterans. We also invest 
in other organizations, many of whom are here today with us. 
Since 2012, we have granted over $80 million to 158 
organizations that complement our direct programs and services.
    That said, we must caution that nonprofits like ours are 
limited by resources provided by the public which may not be 
sustainable long-term. Our largest ally in meeting these needs 
is the government.
    Today I would like to highlight three general topics--
mental health, Mission Act implementation, and DoD-VA 
collaboration. I will also provide three specific actions you 
may consider to make a difference immediately.
    First, as you address the mental health and suicide 
prevention we urge you to embrace a comprehensive approach 
anchored in evidence-based treatments. This foundation should 
support private and nonprofit sector partnerships that keep VA 
at the center of care and strengthen holistic approaches to 
wellness.
    Our own Warrior Care Network is a prime example of how this 
is working. The partnership units us with VA and for renowned 
medical centers such as Boston's General Hospital, to help 
redefine how we treat moderate to severe PTSD. The network 
delivers specialized clinical services through innovative two- 
and three-week intensive outpatient programs, anchored in 
evidence-based treatment and supported by alternative 
therapies. VA personnel are onsite providing bidirectional 
referrals and assistance.
    Veterans are completing this program at a rate of 94 
percent, where traditional programs show completion rates of 
only 40 to 50 percent.
    Second, as you oversee the implementation of Mission Act, 
please ensure that a streamlined process exists to enroll 
providers. Our private-sector providers, some of the world's 
most renowned, have shared that enrollment is difficult and has 
discouraged participation. And reimbursements must be paid on 
time.
    As the caregiver program transforms and expands, your 
oversight of eligibility, revocations, and appeals is 
critically important. We act that VSOs continue to be involved 
in these discussions.
    Our third recommendation for you is to closely monitor 
initiatives requiring DoD collaboration with VA. We support the 
Department's goals of increasing efficiencies, eliminating 
redundancies, and improving health care outcomes, especially as 
they pursue integrated purchase care initiatives and joint 
sharing of facilities and services.
    As I mentioned earlier, here are the three specific actions 
you can take.
    First, we ask you to support legislation allowing veterans 
to renew their specially adapted housing grant every 10 years. 
Veterans' lives change and it is unreasonable for us to expect 
them to remain in their first adapted home for the rest of 
their lives.
    Second, we urge you to reintroduce and support the FAIR 
Heroes Act. This legislation aims to end an unattended 
consequence that leaves severely injured veterans paying annual 
premiums that are five times larger--or higher, excuse me--than 
healthy military retirees.
    Finally, we ask you to hold hearing and commission two 
studies, one for the long-term impacts of TBI. If the DoD 
estimates are correct and research is showing increased early 
onset dementia, Parkinson's, and evidence of CTE postmortem, we 
will soon have a substantial public health crisis. That study 
must also address the needs of TBI patients and caregivers who 
now remain in their homes but will need options for their care 
as their caregivers age.
    The second study is on toxic exposures. We should take a 
comprehensive look at research, data, and personal accounts to 
better identify, track, and care for individuals who have been 
exposed to potential harm through not just burn pits but other 
equally harmful substances and toxins. We must understand the 
scope of these problems today in order to prepare for the 
impacts on our veterans and the health care system tomorrow.
    Thank you for your time and I look forward to answering any 
questions you may have.
    [Applause.]
    Chairman Takano. Thank you for your testimony, Ms. Bardorf. 
I am going to skip my--I will skip to the end of the 
questioning period. I want to recognize Mr. Cisneros for three 
minutes for questioning.

                  REPRESENTATIVE GIL CISNEROS

    Mr. Cisneros. Good afternoon, everyone. I want to thank you 
all for your service to our country and for the dedication that 
you have to the veterans that have served along with you. I 
especially want to thank our veterans from California who are 
visiting and I want to just recognize Jamal Williams and Jose 
Reynoso, who I had a chance to meet earlier today. They stopped 
by my office. I was not there but I got a chance to meet them 
here before this hearing. So thank you again to all of you for 
being here today.
    Since I have got limited time I am going to keep it short 
and I actually--I am a big advocate of education and I am proud 
to have Cal State Fullerton in my district, where we have a 
number of veterans serving there. And so I am just going to let 
you kind of--you already kind of mentioned some things already, 
but just--the GI Bill, what can we do to improve the GI Bill 
that is going to make it better for our student veterans that 
are out there serving right now?
    Mr. Lyon. Well, thank you, sir. So Cal State Fullerton, 
excellent group of student veterans there. And I appreciate the 
question. If we are looking at the GI Bill very specifically, I 
think it has been clear, from my colleagues up here, 
implementation, and Members of Congress agree, is very 
important. The Forever GI Bill, as it pertains right now, we 
are facing a couple of potential hurdles. IT modernization is a 
big challenge. The Forever GI Bill is a fantastic benefit, but 
if we cannot get to actually processing in the manner of the 
intent of the law, the payments in a timely fashion, it is 
going to provide anxiety and stress for those that are 
currently pursuing their educations.
    Many of the student veterans in America that are studying 
right now are in business--science, technology, engineering, 
and math, and health-related fields. These are high-stress and 
highly dedicated students. We do not need to add stressors of 
specifically looking at whether or not I am going to get my GI 
Bill.
    An additional part of the GI Bill is a fantastic 
opportunity to be what is called a VA work-study, while you are 
using the GI Bill. The difficulty here is that it is still a 
paper-based process and it is antiquated and lethargic in it 
ability to pay student veterans in a timely fashion for working 
while they are supplementing their income as students.
    If we could also seek to gain parity with the actual VA 
work-study to the Department of Education's work-study, 
allowing student veterans to not be limited to only doing 
veteran work but to actually work in laboratories, and doing 
research, such that we are gaining not just an education but 
work experience for our post-civilian success.
    Mr. Cisneros. All right. Again, I just want to thank you 
all for your service to our country, and it is a pleasure for 
all of you to be here today, and I yield back my time, Mr. 
Chairman.
    Chairman Takano. The gentleman yields. I now recognize Dr. 
Roe for three minutes.
    Dr. Roe. Thank you, Mr. Chairman. We are working on the 
bill to fix that work-study problem.
    A couple of things, John, that you brought up, and others, 
and I think it is all tied into getting the IT straight. That 
was the big problem with the GI Bill--not the GI Bill. Long 
before computers, they sent me a $300 check every month, and it 
was not a problem at all. It worked great. And we did not have 
all these flub-ups and it was embarrassing to see it roll out 
like that, but it is a great benefit.
    The other thing the VA has got to do on the Mission Act, 
and we tried to put a bill together that would help both urban 
America, where John lives, and rural America, where I live, and 
that was difficult to do.
    One of the things the VA, that they did, where we lived, to 
discourage people from--private physicians, as I was, from 
participating, was they did not pay them. They did not send the 
checks out to anybody, and so the doctors had to get out. I 
think we can get them back, because I think the VA is 
committed. I think the Secretary is Committed to getting that 
right. To make sure to have a robust program out there, the VA 
has got to be able to do that, and the IT is the center of 
that. It has got to be a cloud-based system where I have access 
to that information, they have access to my information. So we 
want to do that.
    And one of the things near and dear to my heart, from the 
student veterans, if I could burn the FAFSA form I would start 
a marshmallow pit with it. With 120 questions--it ought to be 
about 10 or 12, or 20 at the most. We are working on that also, 
to try to make that simpler.
    And, you know, the other part, the oversight, one of the 
things that we did with the Appeals Modernization that we did 
not do with Mission, and I wish we had, was we had the VA come 
in every 90 days and tell us how they were progressing with 
that bill. And the Secretary, to his credit, has been very good 
about coming in and updating us on the Mission Act, which is to 
go wide the 6th of June.
    The problem is they did not include the VSOs very well in 
that, and I found that in doing the Mission Act, bringing all 
the stakeholders around the table, it was a long process, but 
at the end of the day it was the right process because it got a 
bill across the finish line, and that is what I would encourage 
VA to do.
    One other thing on the GI Bill, as you know, on the STEM 
aspect, sometimes that training takes a little longer, so we 
added extra funding, resources so that if someone is in that 
STEM track could finish their degree on time and without the 
debt.
    I just want to finish by--I have learned a lot today. I 
took a lot of notes, and I appreciate all of you all being 
here, and we will hopefully get to some of these or many of 
these things that you all brought up today. And I yield back.
    Chairman Takano. Thank you, Dr. Roe. I would now like to 
recognize the Vice Chair of the House Committee, Representative 
Lamb from Pennsylvania.

                   REPRESENTATIVE CONOR LAMB

    Mr. Lamb. Thank you, Mr. Chairman. Commander Riley, I would 
like to thank you for the attention you called to the mental 
health epidemic, and welcome you as my fellow Pittsburgher back 
down to Washington, DC.
    I know one issue that we have had within the VA health 
system is that we still have VA hospitals with no beds in them 
for mental health treatment. So on the occasion that some 
people show up for treatment they are not able to stay 
overnight or be kept in-patient. I am curious if you have heard 
this complaint as well and encountered any people who dealt 
with that situation.
    Mr. Riley. Thank you. We have encountered various hospitals 
with empty beds, and the thing is to get those beds filled we 
need to reach out more to our community, especially our VSOs, 
and to veterans everywhere. A lot of veterans feel that they 
are too proud to accept that care, whether they know that they 
deserved it or not. It is important that we get the message out 
to all veterans, especially our homeless veterans who need that 
bed for the health that they have acquired, the bad health they 
have acquired in their service to our country. And it is 
important to us, at AMVETS, that our veterans keep getting the 
proper care in a better and more refined way, because what we 
have right now is not working. Thank you.
    Mr. Lamb. Thank you very much, sir. And I want to commend 
the Iraq and Afghanistan veterans who came to my office the 
other day and talked a little bit about this same problem. And 
they have had a lot of success in going out into the community 
and meeting with some younger veterans outside of the VA 
completely.
    So CEO Butler, I do not know what your title is, but if you 
would address that, maybe fill in for the rest of the group 
that was not able to hear that, it sounded like in Dallas, I 
believe it was, in particular, they have had some real success 
kind of holding peer-to-peer counseling type sessions.
    Mr. Butler. Thank you. I think that is the first time I 
have been referred to CEO Butler. That was nice. I do not think 
it will happen again, probably, but it was very nice.
    No, but you are absolutely right, and I think a lot of us 
know the statistic, but 14 out of the 20 daily suicides are by 
veterans that are outside of the VA system. And so it is 
absolutely vital that we fund, that we support, and that we 
advocate for programs that are reaching outside to those 
veterans that are not necessarily in the system, for whatever 
reason that might be. It might be that they have less than 
honorable discharges. It might be that they had a frustrating 
time with the VA system and so they have moved on elsewhere.
    And so I think that is absolutely key. So it is the 
outreach, it is partnering together with organizations that 
have shared missions, and Dallas is a great example, where they 
have got a number of organizations that work together 
collaboratively, they share information, share resources to 
ensure that they are reaching out to and connecting with this 
vulnerable population.
    Mr. Lamb. Well, thank you and please continue to let us 
know how we can help build on those efforts.
    I yield back. Thank you, Mr. Chairman.
    Chairman Takano. Thank you, Mr. Lamb. I now recognize 
Representative Bost of Illinois for three minutes.

                    REPRESENTATIVE MIKE BOST

    Mr. Bost. Thank you, Chairman, and thank you all. Thank you 
all for your service and a shout-out to all the Illinois 
veterans that are here.
    Let me just start out by saying something, and I do not 
mean it in any bad way. I mean, it in a most positive way. 
Jared--Mr. Lyon, in your statement, your mission statement, you 
finished by saying they are leaders of the future. They are 
leaders right now. Everybody that has ever worn that uniform is 
a leader right now.
    And I am going to tell you with working with the VA 
Committee here, and we are trying to do--I come from a state 
that has been really blessed for what they do to veterans. If 
you leave Illinois and enlist in the military, and you come 
back to Illinois, you get a waiver for your tuition, and that 
is above and beyond the GI Bill. That is a wonderful thing that 
we have done.
    Illinois is not known for doing a lot of things right here 
recently, but they did that right, and it is great for our 
veterans and for providing that education.
    Now with the new GI Bill--and this is why it is a concern 
to me--I am one of those lucky Marine veterans. I went in right 
after they got rid of the old GI Bill and got our right after 
they got--before they started the new GI Bill, but I was from 
Illinois so I did receive some benefit of that.
    What do you see in the implementation of this GI Bill now? 
How do we make sure that it is being implemented correctly? And 
I know there have been some problems that we have seen. What 
suggestions would you have?
    Mr. Lyon. Yes, and being one of those lucky Marines it is 
because you are part of the Department of the Navy, I presume.
    Mr. Bost. Yes, the men's department.
    [Laughter.]
    Mr. Lyon. As aptly stated sir. Well done. Well done.
    [Applause.]
    Mr. Lyon. So, you know, really, when you start talking 
about implementation this is a fantastic piece of legislation. 
It was done collaboratively, passed 405 to nothing in the 
House, 100 to nothing in the Senate. Everyone agrees it is 
fantastic. The implementation is really where the devil meets 
the details.
    So one of the additional things, if we start looking at it 
beyond what we have already covered, is I would very much like 
to call your attention to the STEM Extension Act, so the STEM 
scholarships that are available. The reason that that was 
written is because it is the number two most popular major for 
veterans that are in college right now.
    It is also vital to national security that we produce 
engineers, scientists, teachers, and the like. This is a 
population that has a huge propensity, nationwide GPA of a 
3.35, in these majors. They are graduating, but we need to 
attract more student veterans to it. We have the propensity but 
that is going to be the next delayed payments of the VA if we 
do not start having the conversation now.
    So, sir, I would very much encourage you to ask for a 
briefing from VA. I would also encourage all members to ask for 
a briefing, to make sure that we avoid some of the pitfalls 
that we experienced last fall with delayed payments.
    Mr. Bost. Well let me say that not only this program but 
the programs, bills we have passed, it is our job to make sure 
they are implemented correctly, and I know that everybody 
sitting on this dais will make sure that takes place.
    Once again, thank you for your service, and, Mr. Chairman, 
I yield back.
    Chairman Takano. Thank you, Representative Bost.
    I now would like to recognize Representative Underwood of 
Illinois for three minutes.

                REPRESENTATIVE LAUREN UNDERWOOD

    Ms. Underwood. Thank you, Mr. Chairman. I am so grateful 
for this opportunity to be here with all of you and to hear 
about your legislative priorities. You are critical partners in 
the work that we do on this Committee and we really appreciate 
your insight to better serve you and your families.
    In my district I am really proud to represent 36,000 
veterans, and Mr. Bost gave out a shout-out to all the Illinois 
folks, but I want to echo those sentiments. Thank you all for 
being here today and for all the work that you do.
    In my district, of those 36,000 veterans, we have a little 
over 2,000 women veterans, and their needs, just like all 
veterans, are very important. In your written testimony, Mr. 
Riley, Commander Riley, you highlight the rate at which women 
veterans commit suicide, which was 180 percent higher than 
women who never served.
    And so I am wondering if you wanted to expand a little bit 
on some of the unique challenge women veterans face and what we 
can do to better understand and address those challenges.
    Mr. Riley. Thank you, ma'am. Our women veterans and members 
of the Armed Force are presented with a number of unique 
challenges. One in five have experienced military sexual 
trauma. More than 33 percent of women have been subjected to 
domestic violence. Women veterans face unique challenges in 
accessing quality health care. More than 30 percent of VA CBOCs 
cannot adequately treat MST.
    We want the VA to take a look at the issues affecting our 
women veterans and create comprehensive approach that will help 
them. In AMVETS we are looking forward, with this Congress 
here, to work and bring better health care and quality health 
care to our female veterans.
    Ms. Underwood. Yes, sir, and we are really excited to work 
with you to do that.
    Mr. Riley. Thank you.
    Ms. Underwood. On the military sexual trauma--and this is 
open to whoever on the panel wants to answer--we just heard 
Commander Riley talk about 1 in 5 female veterans experiencing 
this type of sexual trauma, and we know that 1 in 100 male 
veterans report experiencing military sexual trauma. And so in 
your opinion, for whoever wants to respond, has the VA provided 
the necessary resources to ensure that these survivors have 
access to the care that they need? Yes, Ms. Bardorf.
    Ms. Bardorf. Hi. Yes. So the answer is no, but the answer 
is no across the board. So I think yesterday we heard a lot 
more about military sexual trauma. And so in both DoD and VA 
there is not enough being done to combat the issue, to change 
cultural norms, and to treat women who have been sexually 
assaulted.
    At Wounded Warrior Project we have a number of programs 
specifically for women, in order for them to feel more 
comfortable to talk and destigmatize reporting of sexual 
trauma. One is a writer's workshop, where we have women come 
together and write about their experiences and then tell their 
stories.
    Another is a Project Odyssey program, where we have women 
who come together on a weekend retreat and share their stories 
with one another, so there is peer-to-peer support.
    And finally, in the Warrior Care Network, we often bring 
women together at the Boston Massachusetts General Hospital and 
the other three academic medical centers in the private sector 
to address real PTSD issues that have been as a result of 
military sexual trauma.
    So we are doing the work but we know that we need to do 
more and we know we need to address child care issues, 
suicides, homelessness. They are more likely to become divorced 
and lose custody of their children as a result of their 
deployments and their mental health needs. So we ask the VA to 
partner with us in doing something about this.
    Ms. Underwood. Thank you. I look forward to amplifying that 
work on the Committee and working with all of you. Thank you 
for your continued service.
    Mr. Chairman, I yield back.
    Chairman Takano. Thank you, Ms. Underwood. I now recognize 
Representative Bilirakis of Florida for three minutes.

                REPRESENTATIVE GUS M. BILIRAKIS

    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it, 
and I want to thank everyone for being here today. Thank you 
for your continuing service. And I want another shout-out for--
well, I am not sure. I may be the first one- -all the Florida 
veterans. Thanks for coming up and bearing this weather.
    I want to ask--I know I am only going to have three 
minutes, but Ms. Bardorf and then Mr. Zurfluh--I hope I 
pronounced that right--both from the Wounded Warrior Project 
and the PVA, maybe you can elaborate a little bit on some of 
the changes that you recommend. I know you testified last year 
with regard to the Specialty Adapted Housing program. And then, 
you know, one example is we want to make sure our terminally 
ill patients are prioritized. So if you could elaborate I would 
appreciate it very much.
    Ms. Bardorf. Thank you, Congressman, and thank you for 
asking that question. It is an area we know that the alumni 
within Wounded Warrior Project, many of whom utilize the 
Specially Adaptive Housing grants. We had a warrior come and 
testify last year in the 115th about this issue.
    What we know about young veterans who were really--we are 
trying to empower them. We are trying to help them get jobs and 
be resilient and continue in their lives despite their 
disability. And we know that young millennials have an average 
home move of six times in their career.
    We had a warrior who used his $80,000 grant in his first 
home. He was not married. He is a double amputee. Wonderfully, 
he got married. He had three children. He could not fit in the 
house he was in anymore and so he moved to Annapolis, Maryland, 
with his wife and his three beautiful children, and he still 
works full-time for Wounded Warrior Project. But he needed a 
larger house and he needed to adapt that house for today and 
also for tomorrow, when he is likely to be in a wheelchair. But 
he has no allowance left.
    So he paid about $123,000 out of his own pocket, with his 
compensation through Wounded Warrior Project, to adapt a second 
home. And we just think it is unreasonable to expect especially 
this generation of veterans who are young and injured, to have 
that expense when we can renew the grant.
    Mr. Bilirakis. Yeah. Well, thank you very much and I 
certainly agree.
    Mr. Zurfluh, would you like to add something, please?
    Mr. Zurfluh. I would. Thank you, sir. One of our member 
populations is veterans with ALS. As they try to get adaptive 
housing we need to try to speed up the priority, due to the 
illness and the short-term that it takes some folks. So I think 
it is really, really a priority that we try to speed up the 
process that they get adaptive housing. There are many members 
here in the audience that have experienced their members going 
through that process, and we can probably talk to you more 
offline.
    One other thing is for the terminally ill that you talked 
about. I think the expansion of long-term care center beds 
would be great for that process. As our aging Vietnam veterans 
become older the greater need for that, I think long-term bed 
expansion would be great in that arena.
    Mr. Bilirakis. Well, thank you very much. I yield back, Mr. 
Chairman.
    Chairman Takano. Thank you, Mr. Bilirakis. I now recognize 
the gentleman from New Hampshire, Mr. Pappas, for three 
minutes.

                  REPRESENTATIVE CHRIS PAPPAS

    Mr. Pappas. Thank you, Mr. Chair and Ranking Member Roe. 
Thank you to the panel, and I want to thank all the veterans' 
advocates for what you are helping us do, which is identify 
priorities of how we can best make good on the promise to our 
nation's veterans. So thank you to all those in this room who 
served. It is inspiring to be in a roomful of heroes, and I 
really look forward to working with all of you to make sure 
that we get it right over the next couple of years.
    I wanted to touch on something that Mr. Susino alluded to. 
Thank you very much for the work that you do, and it was nice 
to hear a little bit about your father's dedication and what 
his life mission was. But I was proud, earlier today, to 
introduce a bill, it is H.R. 1569, and it is the National POW/
MIA Flag Act, and I am cosponsoring that with General Bergman. 
And this bill is going to require that the POW/MIA flag be 
displayed on all days that the flag of the United States is 
displayed on certain federal properties.
    And I am just wondering if you could comment a little bit 
on what that flag represents and the work that we need to 
continue to do to look out for those servicemembers who are 
unaccounted for.
    Mr. Susino. Thank you very much. Different than so many in 
this room, I am not a veteran. My dad was a veteran POW and I 
was not a veteran. So I look through the eyes of a non-veteran. 
I listen with the ears of a non-veteran. And I thought about 
that question earlier when I look at the various bills we look 
to support.
    And all Americans have a general understanding when they 
look at the American flag, and it is one about the country. It 
is one about patriotism. And nothing draws them, necessarily, 
to those that have guarded its freedom or did not come home. 
And that is universally understood with the POW/MIA flag.
    So, for me, literally as a layperson, that is where I get 
excited about that bill. Again, I represent an organization, a 
service organization of veterans, but again, my view is--if my 
view is similar to those that are non- veterans, it immediately 
draws the public awareness and their attention to the veterans, 
and particularly those that did not come home. So I think that 
simply is why it is so important, where those in this room 
think of it always and have a different and a broader meaning 
of the flag. Many do not.
    Mr. Pappas. Thank you. I appreciate those comments.
    Ms. Bardorf, I had the opportunity to meet with the owner 
of a small business in my district this week, and he develops 
form-fitting sockets for veteran prosthetics. And he mentioned 
the barriers that he has in working, from his company's 
perspective, with the VA, but also the preference that many 
veterans have to not seek prosthetic care at the VA.
    So I am wondering if you can comment a little bit about 
that and about how we can improve the VA's response to allow 
our veterans to achieve greater mobility.
    Ms. Bardorf. I would be happy to. We have over 1,800 
amputees from this post-9/11 generation. One of them is sitting 
right behind me. His name is Jose Ramos, and he is an upper 
extremity amputee who I have known since the day he arrived at 
Bethesda in 2004, after the Battle of Fallujah, and he was hit 
with a rocket-propelled grenade.
    He received unbelievable care, he will tell you, from 
Walter Reed Bethesda--at the time it was just Naval Hospital 
Bethesda--in the prosthetics lab there. He created a bond with 
the staff there. They are used to the activity levels of this 
generation. They provide whatever they need and they do it very 
quickly. If you want a running leg they will give you a running 
leg. If you want a robotic arm you will get a robotic arm. If 
you want a swimming leg they will do that. They move really 
quickly and they have wonderful relationships. And so this 
generation feels comfortable moving back to them.
    The VA does not work as quickly. It also is not as quick to 
provide alternative types of prosthetics. They do not move as 
quickly. They do not necessarily use the private sector in the 
same way.
    So we really would ask for there to be across-the-board 
consistency so this generation of veterans will use both and 
feel comfortable to use both DoD and VA.
    Mr. Pappas. Thank you very much, and thank to Mr. Ramos, as 
well, for your service.
    I yield back.
    Chairman Takano. Thank you, Mr. Pappas. I now recognize 
Representative Levin for three minutes.

                   REPRESENTATIVE MIKE LEVIN

    Mr. Levin. Thank you, Mr. Chairman. I am so grateful for 
the opportunity to be here today and to hear from all of you. I 
am equally grateful to be the new Chair of the House Veterans' 
Affairs Committee on Economic Opportunity, and it is a 
responsibility that I take extremely seriously.
    I am so grateful for your input. I am going to need all of 
you as partners throughout the next couple of years as we work 
on these issues together.
    I have a great district in Orange and San Diego Counties, 
and right in the middle is Marine Corps Base Camp Pendleton. It 
is an amazing place. I am so honored to serve there. And we 
have probably one of the largest veteran populations in the 
United States.
    There are a ton of people who are doing great, who are 
contributing positively to all aspects of our local community. 
There are others who are facing difficult transition. When they 
make that transition into the workforce, a whole variety of 
issues that we face, everything from the GI Bill and how they 
are able to best leverage it, vocational rehabilitation, then 
also issues around housing. It is an incredibly high-cost area. 
Homelessness is a pervasive and daunting challenge. There are 
roughly 1,300 homeless veterans, it is estimated, in the 
greater San Diego region.
    So sort of a lightning round question, because there are 
seven of you and only about a minute and a half. But I am 
curious if each of you could just tell me what is your most 
important priority as it pertains to economic opportunity? So 
it could be the GI Bill, homeless housing, vocational 
rehabilitation, and the like. I am just curious what your top 
priority would be.
    Yes, sir.
    Mr. Rowan. Yeah, it would be very simple. Get the cities 
and states to set aside veteran-owned business programs, 
letting them get an edge. We see that in some states, we have 
seen it in some cities, but it is not pervasive. We do see it 
in the Federal Government but not in the locals, and, 
unfortunately, not in New York City.
    Mr. Levin. Yes, sir.
    Mr. Butler. Yeah, I would say it is kind of a couple of 
things. We talked a lot about the GI Bill but one of the things 
that was not touched on is in the past there have been attempts 
to make tweaks to the GI Bill that it would actually take away 
a little bit of the funding. There was the move to take the 
transferability away for anyone who served longer than 16 
years. These are things that also are, we feel demoralizing the 
force and taking away earned benefits. Because the GI Bill, as 
it was well stated by Jared, you know, it is one of the most 
incredible benefits that we have.
    So making sure the GI Bill not only is funded forever but 
also that there are no cuts to it would be one thing, and the 
other is underemployment. I think there are a lot of veterans 
out there who are not achieving their full value of employment 
because a lot of the civilian community just does not 
understand the ability of today's veterans to do a wide variety 
of tasks.
    Mr. Levin. I appreciate that. I am out of time so I will 
yield back to the Chairman. Thank you all very much. I am 
honored to be here with you.
    Chairman Takano. Thank you, Mr. Levin. I recognize myself 
for three minutes.
    Mr. Lyon, I am so pleased to see Student Veterans of 
America represented today and representing the latest 
generation of heroes in our country. I see that 90/10, the 
loophole is a priority for you. Can you explain why that is 
such an important priority?
    Mr. Lyon. One hundred percent sir. Thank you very much for 
the question and thank you again for joining us at our national 
conference and speaking in front of 2,300 student veterans in 
January.
    So the 90/10 loophole is something that we have been having 
a conversation about far exceeding any of our efforts in the 
veteran space. Ironically, it goes all the way back to the 
original Servicemen's Readjustment Act of 1944, when we 
implemented it to ensure that folks did not take advantage of 
veterans' benefits.
    But the simple notion that if a student is attending higher 
education a school should have the opportunity to have people 
paying out of pocket and not 100 percent of the federal funds 
going to tuition.
    In closing the 90/10 loophole, the best thing that we could 
do is have GI Bill and DoD tuition assistance dollars 
recognized as federal dollars, and to not just have it 
implemented on tax status, so for just proprietary 
institutions, but let us just go ahead and have it blanketly 
applied to all institutions of higher learning. If we do this 
we effectively close the 90/10 loophole, we avoid the predatory 
practices, and we make sure that benefits are used to the best 
first way for students.
    Chairman Takano. Mr. Lyon, I was not aware that DoD is also 
exempted.
    Mr. Lyon. Yes, sir.
    Chairman Takano. That is incredible. I have got some more 
questions but that is a new fact I learned today.
    You know, real quickly, greater oversight of nonprofit 
conversations. Explain that. What are nonprofit conversions?
    Mr. Lyon. Yeah. So when we start looking at proprietary 
institutions of higher learning that will perhaps purchase a 
maybe failing or struggling not-for-profit institution of 
higher learning, and by de facto creating themselves the 
opportunity to have that not-for- profit status. It is really a 
sheep in wolf's clothing, if you will.
    So if you have the opportunity to have better oversight on 
that and provide provisions that make that more difficult, or 
at least be more transparent when it occurs, it better aids in 
student protections.
    Chairman Takano. So we are talking about a not-for-profit 
institution that is actually acquired by--
    Mr. Lyon. Yes, sir.
    Chairman Takano. --a for-profit institution, and they are 
able to take advantage of its nonprofit status. That is a--I 
have heard of it but this is--do you know the extent to which 
this is happening?
    Mr. Lyon. The extent to which it is happening is difficult 
to measure because proprietary institutions of higher learning 
have far better resources than money to spend on not having 
that be known as well.
    Chairman Takano. Real quickly, are you aware of veterans 
who have been harmed by such conversions?
    Mr. Lyon. Yes, sir.
    Chairman Takano. Well, I am running out of time. I will be 
curious to know more about this.
    Mr. Lyon. I would be happy to.
    Chairman Takano. Great.
    Well, that concludes--I yield back to me the time that I 
did not use.
    [Laughter.]
    Chairman Takano. Let me catch up here.
    I want to thank everyone for their testimony today and I 
look forward to working with you and all your organizations and 
your priorities for your members in the future.
    Did I not recognize you earlier? I recognized you earlier. 
Yes. I know I did.
    I look forward to working with you in the future, and I 
wanted to say that all members will have five legislative days 
to revise and extend their remarks and include extraneous 
material.
    Again, thank you for your presentations, and this hearing 
is now adjourned.
    [Applause.]
    [Whereupon, at 3:35 p.m., the Committees were adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                
               




      

                                  <all>
</pre></body></html>
